0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-897
TONY H. PHAM, SENIOR OFFICIAL PERFORMING THE
DUTIES OF THE DIRECTOR OF U.S. IMMIGRATION AND
CUSTOMS ENFORCEMENT, ET AL.,

Petitioners,

v.
MARIA ANGELICA GUZMAN CHAVEZ, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Former United States
Immigration Judges and Members of the Board of
Immigration Appeals as Amici Curiae in Support of
Respondents contains 7,715 words, excluding the parts
of the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on November 12, 2020.

D,

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Q

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

, 8790 Governor's Hill Drive

(800) 890.5001

Suite l 02
· Cincinnati, Ohio 45249

I www.beckergallagher.com

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN 0. GALLAGHER
Notary Public, Slate al Ohio
My Commission Expires
Frbru;, y ' ' .:1:1

